DATE:                                December 22, 2004

MEMORANDUM FOR:                      JOHN L. HENSHAW
                                     Assistant Secretary for
                                       Occupational Safety and Health



FROM:                                ELLIOT P. LEWIS
                                     Assistant Inspector General
                                      for Audit

SUBJECT:                             Complaint on 21(d) Consultation Grant
                                     Indiana Department of Labor, Bureau of Safety Education
                                       and Training
                                     Report No. 05-05-003-10-105

An anonymous complainant alleged that the Occupational Safety and Health Administration
(OSHA) 21(d) grant funds awarded to the Indiana Department of Labor’s (IDOL), Bureau of
Safety Education and Training (BuSET) were misused and mismanaged. The complaint cited
three allegations. Of the three allegations, one was unsubstantiated and two were substantiated.
We considered one of the substantiated allegations to be resolved because the grantee had
already taken corrective action towards the complaint. The second substantiated allegation, with
recommendations, is included in this report.

Objective, Scope and Methodology

We conducted an audit of IDOL’s BuSET to determine if the allegations were substantiated.
Specifically the complainant alleged:

     •   a consultant was paid travel per diem for sites he never visited (unsubstantiated),
     •   a consultant was paid travel per diem for 21(d) consultations but never completed the
         consultation visit reports or intervention paperwork (substantiated and corrective action
         taken), and
     •   BuSET’s management could not account to the State Board of Accounts for 600 copies
         of Code of Federal Regulations (CFR) books containing OSHA regulations, so stopped
         selling the books to businesses (substantiated).

We reviewed the consultation program activities and related expenditures claimed by the
consultants in question for the period October 1, 1999 through September 30, 2002.
To determine the merits of the allegations, we interviewed officials at IDOL and BuSET. We
also reviewed OSHA’s Training and Education Directive (TED) 3.6, “Consultation Policies and
Procedures Manual,” travel vouchers, and consultation request letters. In addition, we reviewed
a report entitled the “State Board of Accounts Audit Report of Indiana Department of Labor,
State of Indiana March 1, 1998 to February 28, 2001.”

To meet our objective, we reviewed management controls over relevant consultation program
activities and related expenditures. Our work on established management controls included
obtaining and reviewing policies and procedures manuals, interviewing key personnel, and
reviewing selected transactions to observe the controls in place. Our testing related to
management controls focused only on the controls related to our audit objective of determining
whether the allegations were substantiated, and was not intended to form an opinion on the
adequacy of management controls overall, and we do not render such an opinion. Weaknesses
noted in our testing are discussed in the Results section of this report.

Fieldwork was performed at the IDOL and BuSET offices in Indianapolis, Indiana between
December 2002 and June 2003. Our audit was performed in accordance with Government
Auditing Standards.

Results

Travel Paid for Sites Never Visited

We found that the consultant was paid travel per diem to perform consultations at sites visited.
We selected a random sample of vouchers for the consultant identified in the complaint. We
identified the purposes of the trips listed on the vouchers. We reviewed the support
documentation available for 5 of the 7 vouchers identified as consultation visits and contacted
the employer. The employers contacted confirmed that the consultant had visited the site. We
concluded that the consultant was only reimbursed travel for those sites visited. Therefore, the
allegation is unsubstantiated.

Travel Paid, but Reports or Paperwork not Completed

We concluded that a consultant conducted onsite consultation visits and was paid travel per diem
but did not complete the consultation visit reports or intervention paperwork. While the
allegation stated that about 40 consultations or interventions remained open, the complainant
only provided documentation for 26 requests for visits. Of these, 13 requests were made prior to
the July 1, 1999 start date of the consultation program in Indiana. Therefore, there were only
13 visits included in our scope, which was October 1, 1999 through September 30, 2002.

OSHA TED 3.6 requires that consultation services be documented:

       The written report to the employer must be prepared at the conclusion of any
       initial visit. Visits other than initial visits do not require a written report to the



                                                   2
       employer, but must be concluded with a letter to the employer summarizing the
       activity.

The consultant performed consultation visits for over a year without issuing a written
consultation report due to lack of management supervision. Because the consultant did not
provide a written report to the employers after the consultation visits, BuSET management may
not be able to determine if corrective actions taken by the employers were adequate or timely.
According to BuSET management, the consultant was told many times to do a better job of
completing his case files. BuSET management decided not to pursue this matter since the
consultant was about to retire. Instead, BuSET management prohibited the consultant from
performing future consultation visits and assigned him to assist in conducting training seminars.

We successfully contacted 11 of the 13 employers in our scope to determine if the consultant
appeared at these businesses for consultation visits. Representatives from seven employers
confirmed that consultation visits were made and verbal feedback was provided by the
consultant, but a written report was not received. The other four employers could neither
confirm nor refute the completion of a consultation visit because the representative who
requested the consultation was not available or was no longer employed there.

Even though the consultant did not prepare a written report at the conclusion of the initial
consultation visits, as required by OSHA TED 3.6, we confirmed that he provided the consulting
benefit through verbal feedback. In addition, BuSET prevented him from performing additional
consultations. We are satisfied with the corrective actions taken by BuSET and recommend no
further action.

Copies of CFR Books Missing

We found that IDOL does purchase CFR books in bulk for the 21(d) consultation program for
resale to the employers that the consultants visit. We confirmed the allegation that IDOL’s
records did not account for 600 copies of CFR books that are sold to employers by BuSET.
Although BuSET was previously instructed to maintain an inventory record, the tracking system
developed is inadequate to account for the CFRs and document program income.

The Indiana State Board of Accounts, in its audit of IDOL, could not verify the final disposition
of 430 CFRs purchased by IDOL for the period April 29, 1998 to May 30, 2001. IDOL
estimates that it distributed these books to employers (approximately 230) and other state
agencies (approximately 200). The State Board of Accounts recommended that IDOL record
future distribution of books so that supporting documentation is available for audit. IDOL
responded to the Board of Accounts that it had implemented a new tracking procedure for
managing the standards books. This audit report addressed CFR purchases made with grant
funds from another DOL program because IDOL began receiving 21(d) grant funds in July 1999.
IDOL also purchased CFR books with federal funds from another DOL grant program, 23(g),
during the same period. Because IDOL used the CFR books while conducting work under both
grants, it would be difficult to accurately determine which grant funds were used for past CFR
purchases.

                                                3
As a result of the Indiana State Board of Accounts audit, IDOL instructed BuSET to maintain an
inventory record to support the number of CFR books on hand and those distributed. We
reviewed IDOL’s current method of tracking CFR books. We found that books picked up by the
consultants are recorded as “sales” and then a “credit” is issued to the same consultant when an
invoice is issued to the eventual purchaser of the books. This allows IDOL to track CFR books
through the consultant’s possession to the actual purchaser. However, this tracking system is
limited to tracking CFR books, but not for tracking costs.

The controller told us that revenues received by IDOL from the sales of CFR books are reported
as Program Income on the Financial Status Report (FSR) and the OSHA-2 Form. Program
Income reported on the FSR is deducted from the total outlays reported for the quarter. While
Indiana’s FSRs report Program Income, we were unable to reconcile CFR book sales to the
General Ledger or FSRs.

IDOL’s current method of tracking CFR books is inadequate for inventory purposes because it
does not identify a beginning balance from the prior year, the number of CFR books currently
purchased, the number disposed of, and an ending balance. To maintain an inventory, these
details must be available. IDOL, in addition, was unable to track the revenues of prior CFR sales
to the general ledger or FSRs. IDOL must reconcile the inventory to their accounting system,
since program income is required to be reported on the FSR.

Recommendations

We recommend that the Assistant Secretary for Occupational Safety and Health require IDOL to:
1) develop and maintain an adequate inventory system for CFR books, and 2) account for
revenues from the sale of CFR books for the consultation and enforcement grant programs
separately.

Agency Response

IDOL distributed CFR books to employers and employees in the State of Indiana at training
sessions conducted under two different grants, the 21(d) consultation and 23(g) enforcement
programs. IDOL staff members allocated their time at the sessions between the two grants based
on the percentage of attendees chargeable to each grant. Time allotment, which was directly tied
to the number of persons provided a book under each respective grant program, was then used to
divide program income between the two grants involved. IDOL believes that this system
accurately reflected usage and income of the books attributable to each grant involved.

Nonetheless, the IDOL discontinued use of any grant dollars for the purchase of CFR books
some time ago.

OIG Conclusion

Because DOL funds are no longer used to purchase CFR books, our recommendations of
maintaining an adequate inventory system, and accounting for revenues from the sales of CFR

                                               4
books are considered resolved. Before we can close the recommendations, IDOL should provide
copies of the general ledgers and FSRs subsequent to the period they discontinued using DOL
funds to purchase the books to show that program income is not being received.

                                          -- -- -- -- --

If you have any questions, please contact Charles M. Allberry, Regional Inspector General for
Audit in Chicago at (312) 353-2416.

Attachment

cc:    Robert Poogach




                                                5
Grantee’s Response to Draft Report




                6
7
8
